No.
IN THE

supreme Court of tije Einiteb i§tateo
Michael Lynn Robertson,
Petitioner,
v.
Banner Bank,
Respondent.

On Petition for Writ of Certiorari to
the United States Court of
Appeals for the Tenth Circuit

APPLICATION FOR EXTENSION OF TIME
TO FILE A PETITION FOR WRIT OF CERTIORARI

Michael Lynn Robertson
Pro se
544 N 880 E
Springville, UT 84663
(801) 592-7674
megus@usa.com

RECEIV E:
OCT 1 0 2mq

I
OFFICE OF THE
CI_ En t< I
SUPREME COURT

APPLICATION
To the Honorable Sonia Sotomayor, Associate Justice of the Supreme Court of
the United States and Circuit Justice for the Tenth Circuit:
Pursuant to Supreme Court Rules 13.5, 22, and 30, and 28 U.S.C. § 2101(c),
Applicant Michael Lynn Robertson respectfully requests a 60-day extension of time,
to and including Monday, December 23, 2019, to file a petition for a writ of certiorari
to review the decision below.
The court of appeals entered its judgment on May 29, 2019. In re
Robertson, Court of Appeals, Tenth Circuit 2019 (Appendix A). The Tenth Circuit
denied Robertson's timely petition for rehearing and suggestion for rehearing en
bank on July 26, 2019 (Appendix B). Currently, a petition for certiorari is due on
October 24, 2019. This application is being filed over ten days before the petition is
due. See Sup. Ct. R. 13.5. The jurisdiction of the Court would be invoked under 28
U.S.C. § 1254(1).
This case is a serious candidate for certiorari review because it squarely
and cleanly presents important standard of review questions on the issue of
jurisdictional time prescriptions in bankruptcy appeals and on the effect of a court's
appropriate decision to entertain an untimely rehearing petition on which the courts
of appeals are openly divided.
a.

Over the past 15 years, this Court has written extensively on the

jurisdictional consequences of statutory filing requirements; however, it has not yet
considered the filing requirements imposed by 28 U.S.C. § 158(c)(2) on an appeal
from final judgements, orders or decrees from a bankruptcy court. An appeal filing
2

deadline prescribed by statute is considered "jurisdictional," meaning that late filing
of the appeal notice necessitates dismissal of the appeal. See Bowles v. Russell, 551
U.S. 205, 210-213, 127 S.Ct. 2360, 168 L.Ed.2d 96. In contrast, a time limit
prescribed only in a court-made rule is not jurisdictional. It is a mandatory claimprocessing rule that may be waived or forfeited. Ibid. This Court and other forums
have sometimes overlooked this critical distinction. See Reed Elsevier, Inc. v.
Muchnick, 559 U.S. 154, 161, 130 S.Ct. 1237, 176 L.Ed.2d 18. The time limit in 28
U.S.C. § 158(c)(2) is only contained in Federal Rule of Bankruptcy Procedure 8002
yet all the circuits hold that time limit as jurisdictional, reasoning that "Rule 8002(a)
defines the statutory time period for filing an appeal under Section 158(c)(2), rather
than the reverse. [Theating Rule 8002(a) as jurisdictional arguably conflicts with the
principle espoused in Rule 9030 because doing so allows a bankruptcy rule to set the
time within in which a party must file an appeal and, thereby, allows a bankruptcy
rule to affect the subject-matter jurisdiction of a federal court. But, ultimately this
argument fails. It is true that bankruptcy rules alone cannot create or withdraw
jurisdiction. Here, however, it is Section 158(c)(2) that is determining jurisdiction by
incorporating the time limits prescribed in Rule 8002(a)." Emann v. Latture (In re
Latture), 605 F.3d 830, 837 (10th Cir. 2010). This case presents an important issue
concerning the rights and responsibilities of those parties in bankruptcy proceedings
that should to be addressed by this Court.
b.

This case also concerns an issue over which the circuits are openly

divided. Robertson filed a rehearing petition under Federal Rule of Bankruptcy
Procedure 9023 and Federal Rule of Civil Procedure 59(e) which the bankruptcy

3

court properly entertained and decided on the merits. The Tenth Circuit held that
the petition was untimely filed. Following opinions from the First, Third, Fourth,
Fifth, Seventh, and Eleventh Circuits, which follow this Court's decision in Browder
v. Director, Department of Corrections, 434 U.S. 257, 265 (1978). "It was untimely
under the Civil Rules and therefore could not toll the running of time to appeal
under Rule 4(a)", the Tenth Circuit held that, even if the petition was properly
entertained by the bankruptcy court because Rule 9023 and Rule 59(e) are claim
processing rules, it did not toll the running of the time to appeal.
In contrast, the Second, Sixth, Ninth, and D.C. Circuits have concluded that
an untimely post-judgment motion can toll the appeal period under Appellate Rule
4(a)(4)(A). See Demaree v. Pederson, 887 F.3d 870, 876 (9th Cir. 2018) (per curiam);
Weitzner v. Cynosure, Inc., 802 F.3d 307, 312 (2d Cir. 2015); Obaydullah, v. Obama,
688 F.3d 784 (D.C. Cir. 2012); Nat'l Ecological Found., 496 F.3d at 476. The Eighth
Circuit has implied as much. See Dill v. Gen. Am. Life Ins. Co., 525 F.3d 612, 619
(8th Cir. 2008).
This is also in keeping with this Court's finding in Hibbs v. Winn, 542 U.S. 88,
(2004) "That order, we conclude, suspended the judgment's finality under § 2101(c),
just as a timely filed rehearing petition would, or a court's appropriate decision to
consider a late-filed rehearing petition. Compare Youngv. Harper, 520 U. S. 143,
147, n. 1 (1997) (appeals court agreed to consider a late-filed rehearing petition;
timeliness of petition for certiorari measured from date court disposed of rehearing
petition). Since a court of appeals only has jurisdiction of final orders, the time could
not begin to run until a petition for rehearing was resolved. This circuit split is a
4

critical issue for this Court's resolution.
3.

This application is not filed for the purpose of delay. Petitioner is filing

this petition pro se. On September 7, 2019 his mother passed away. During the
preceding three weeks she required round the clock care which was provided by
Petitioner and his siblings. Thereafter, Petitioner was appointed as the executor of
her estate and heavily involved in the funeral and other estate matters. This heavy
load has restricted the amount of time needed to adequately research and address
the critical issues needed to provide a well-researched and comprehensive petition
that will assist the Court in evaluating the Federal Circuit's decision.
For these reasons, Applicant respectfully request that the due date for his
petition for a writ of certiorari be extended for 60 days to and including December
23, 2019.
Respectfully submitted this 4th day of October 2019.

Michael Lynn Robertson
Pro se
544 N 880 E
Springville, UT 84663
(801) 592-7674
me gus@usa.com

5

